 AMTRAK’S BOARD OF DIRECTORS PROVIDES
 LEADERSHIP TO THE CORPORATION BUT CAN
IMPROVE HOW IT CARRIES OUT ITS OVERSIGHT
            RESPONSIBILITIES
    National Passenger Rail Corporation (Amtrak)

           Report Number: CR-2007-074
          Date Issued: September 14, 2007
           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Amtrak’s Board of Directors Provides                                      Date:    September 14, 2007
           Leadership to the Corporation but Can Improve
           How It Carries Out Its Oversight Responsibilities
           National Passenger Rail Corporation (Amtrak)
           Report Number CR-2007-074
  From:                                                                                   Reply to
           David A. Dobbs                                                                 Attn. of:   JA-50
           Principal Assistant Inspector General
            for Auditing and Evaluation
    To:    Federal Railroad Administrator
           Amtrak Board of Directors

           On April 25, 2006, the Democratic Members of the House Committee on
           Transportation and Infrastructure Amtrak Working Group requested that our office
           conduct an audit of Amtrak’s Board of Directors (the Board).1 This request was
           prompted by the Working Group’s review of Amtrak’s performance related to the
           issues raised in a 2005 Government Accountability Office (GAO) report2
           concerning Amtrak. The GAO report cited deficiencies in Amtrak’s strategic
           planning, financial reporting, acquisition management, cost containment, and
           accountability and oversight.

           In their request, the Members indicated their belief that some of the deficiencies
           cited in the GAO report represented a failure of Amtrak’s Board. Their chief
           concern was whether the Board had exercised sufficient oversight of the
           corporation and held management accountable for results. In addition, there were
           concerns regarding the appropriateness of the Board’s expenses.

           The objectives of our audit were to determine: (1) the rules, procedures and
           authorities under which the Board operates; (2) whether the Board has followed
           established processes and procedures; (3) whether the Board has set long-term
           1
               The current Board was established by the Amtrak Reform and Accountability Act of 1997, Pub. L. no. 105-134
               (1997), which specifies the Board’s structure, the Director’s qualifications, and how Board members are appointed.
               There are up to seven voting Board members, and the Amtrak CEO serves as a non-voting member. Board members
               are nominated by the President and confirmed by the Senate; they serve 5-year terms.
           2
               Amtrak Management: Systemic Problems Require Actions to Improve Efficiency, Effectiveness, and Accountability.
               October 2005. GAO-06-145.
                                                                                                                2


goals and performance objectives; (4) whether the Board’s processes and
procedures are sufficient for ensuring oversight of and requiring accountability
from Amtrak management; and, (5) whether the Board members’ expenses
comply with corporate guidelines and if those guidelines ensure the prudent use of
corporate resources.

We performed the audit in accordance with Generally Accepted Government
Auditing Standards prescribed by the Comptroller General of the United States.
We reviewed the Board’s actions from January 2002 to July 2007 and Board
expenses from January 1, 2002, through December 31, 2006. To complete this
audit, we attended Board meetings and reviewed legislation and policies relevant
to the management and governance of Amtrak, Board meeting minutes, applicable
corporate board “best practices,” and Board expenses. We also conducted
interviews with Amtrak Board members, Amtrak’s President and Chief Operating
Officer (CEO) and other senior Amtrak officials, and those who worked on the
2005 GAO report. Exhibit A details our audit scope and methodology.


RESULTS IN BRIEF
We found that the Board complies, with limited exceptions, with the rules and
procedures delineated in its corporate bylaws and Statement of Policy. We also
found that the Board established a strategic direction for Amtrak in April 2005 but
did not fully implement it. In June 2007, the Board adopted a revised plan for
FY 2007 through FY 2008. We also found that the Board has the tools to conduct
oversight and hold management accountable and provides oversight of
management’s actions. However, the Board could improve its effectiveness by
implementing some corporate governance best practices. Finally, we found that
the Board members’ expenses comply with corporate guidelines and are
reasonable.

The Amtrak Board sets and oversees Amtrak’s strategic direction while the
Amtrak CEO manages day-to-day operations. The general authorities under
which the Board and CEO operate are enumerated in Amtrak’s bylaws, which
were established in accordance with the District of Columbia Business
Corporation Act.3 These bylaws charge the Board to “manage Amtrak’s affairs
and business.” The CEO is charged with “general supervision of Amtrak’s affairs
and, subject to the policies and direction of the Board, supervising and directing
all of Amtrak’s officers and employees.” These respective responsibilities result
in the Board setting and overseeing Amtrak’s strategic direction and the CEO
managing Amtrak’s day-to-day operations.

3
    As a for-profit corporation incorporated in Washington, DC, Amtrak is subject to District of Columbia Business
    Corporation Act.
                                                                                  3


With few exceptions, the Board followed established processes and
procedures. We found that, in general, the Board followed its established
processes and procedures; however, we noted three exceptions. The Board did not
consistently meet in the committees called for in its Statement of Policy or hold an
annual election of the Board Chairman and Vice Chairman as required in its
bylaws. Recently, the Board took action to address these issues. In addition, the
Board did not receive detailed lists of capital projects over $1 million included in
its proposed Annual Grant and Legislative request prior to approving that request
as called for its Statement of Policy. These lists were prepared by and available to
Amtrak management as part of the capital budget planning process, but were not
provided to or requested by the Board. Amtrak management indicated that the
Board would receive this information at its next scheduled meeting.

The Board set a long-term strategic direction for Amtrak, but this plan
lacked detail and was not fully implemented. The Board set a strategic
direction for Amtrak with its April 2005 Amtrak Strategic Reform Initiatives and
FY 2006 Legislative Grant Request. This document provides high-level strategic
direction to guide Amtrak management and employees in the performance of their
duties.

The April 2005 document contained broad long-term objectives that were not
translated into a detailed plan with outcomes, milestones, and performance
measures. According to the Board Chairman, this resulted from resistance to the
planning process by the previous CEO and the transition to a new CEO and senior
management team. As a result, the Board and Amtrak management lacked a
comprehensive standard against which to evaluate how Amtrak’s day-to-day
activities are addressing the Board’s strategic vision for Amtrak. The revised June
2007 plan addresses this problem in part by providing measurable, near-term goals
but provides only limited and non-quantified long-term goals.

The Board has limited but sufficient tools to conduct oversight and hold
management accountable. We found that the Board has sufficient tools available
to conduct oversight and hold management accountable; however, the tools
available to it are more limited than those available to a typical corporate board.
The available tools are both formal, such as the requirement that it approve an
annual legislative and grant request, and informal, such as the ability to challenge
management’s proposals by asking incisive questions and examining underlying
assumptions and trade-offs.

While the Board conducts oversight and holds management accountable, its
practices could be improved. The Board has shown a willingness to conduct
oversight and hold management accountable. Nevertheless, we found that the
Board’s oversight and accountability system could be improved by adopting
                                                                                                               4


corporate best practices regarding the timing and quality of information it receives
and evaluating its own effectiveness.

Board members’ expenses comply with corporate guidelines and are
reasonable.     We found that between 2002 and 2006, board members’
compensation (i.e., director’s fees) and expense reimbursements complied with
applicable guidelines. We also found that these guidelines were adequate to
ensure the prudent use of corporate resources. While these guidelines do not limit
the amount of travel, subsistence, or other expenses for which a board member
may be reimbursed, in practice, board members apply a standard of reasonableness
to their reimbursement requests. In addition, all of the Board’s expenses are
reviewed for reasonableness by the Amtrak General Counsel’s Office before being
paid. Issues regarding reimbursement requests are raised to the Amtrak CEO and
resolved between the CEO and the Board Chairman. This level of review and
oversight is commensurate with the limited amount of funds involved.


FINDINGS

The Amtrak Board Sets and Oversees Amtrak’s Strategic Direction
While the Amtrak CEO Manages Amtrak’s Day-To-Day Operations
Amtrak’s bylaws give the Board responsibility for managing Amtrak’s affairs and
business4 and the CEO responsibility for general supervision of Amtrak’s affairs
and, subject to the policies and direction of the Board, supervision and direction of
Amtrak’s officers and employees. Both Amtrak’s Board Chairman and CEO told
us that, in practice, these authorities result in the Board setting, and overseeing
progress towards, a strategic direction for Amtrak and in the CEO managing
Amtrak’s day-to-day operations.

The Board has adopted a Statement of Policy that delineates the rules and
procedures through which it implements the authorities provided to it by the
corporation’s bylaws. The Statement of Policy requires the Board to approve:
(1) an annual corporate budget, including a capital budget and a revenue and
expense operating budget; (2) capital and lease commitments exceeding
$1 million; (3) changes to capital and lease commitments that exceed specific
thresholds; (4) major operating budget resets; (5) a corporate strategic business
plan; (6) certain business transactions that exceed specific thresholds;
(7) executive level compensation and personnel actions, (8) the initiation or
termination of train service; and (9) pattern collective bargaining agreements.


4
    This language is taken directly from the District of Columbia Business Corporation Act, D.C. Code Section 29-
    101.32(a).
                                                                                                                   5


The Statement of Policy also specifies the compensation and expense
reimbursement policy for the Board’s members, committee structure, and certain
delegations of authority. Amtrak’s bylaws also stipulate who will chair Board
meetings in the absence of the Chairman, where to hold meetings, how often to
hold meetings, what committee procedures will be, and what will constitute a
quorum.


With Few Exceptions, the Board Followed Established Processes and
Procedures
We found that, in general, the Board followed established rules and procedures.
However, we noted three exceptions. The Board has taken steps to address these
exceptions.

First, we found that the Board did not consistently meet in the committees called
for in its Statement of Policy. According to the Board Chairman, the number of
vacant board positions in recent years made it impractical to meet in committees.
As shown in Table 1, the Board last had a full complement of seven members in
May 2003. Exhibit B lists the names and dates of service of all Board members
from 2002 to present. At times, the Board has had only three members, while its
Statement of Policy called for five committees at the time.5 As a result, the Board
as a whole sought to conduct the activities that would otherwise have been
assigned to committees. In April 2007, the Board restructured and re-established
its committees, assigned a different member to chair each committee, and began
holding committee meetings before regularly scheduled Board meetings. At
present, all five board members serve on each committee.




5
    Until April 2007, the Statement of Policy established the following five committees: Audit, Compensation and
    Personnel, Corporate Affairs, Finance, and Legal Affairs. In April 2007, the Board replaced these committees with
    the following four committees: Audit and Finance, Government Relations and Corporate Affairs, Personnel and
    Compensation, and Risk Management and Legal Affairs.
                                                                                    6



                        Table 1. Board Membership
             Date                         Number of Months        Voting Members
January 2002-October 2002                       10                       6
November 2002-May 2003                           7                       7
June 2003-August 2003                            3                       5
September 2003-June 2004                        10                       3
July 2004-May 2006                              23                       4
June 2006                                        1                       3
July 2006-August 2006                            2                       5
September 2006-November 2006                     3                       6
December 2006-July 2007                          8                       5

Second, we also found that the Board did not hold an annual election of the Board
Chairman and Vice Chairman, as its bylaws required, between July 2003 and July
2007. At its April 2007 meeting, the Board formally voted to re-elect David
Laney as Board Chairman. Mr. Laney has been serving as Board Chairman since
being elected to that position on July 23, 2003. The Board formally voted to elect
Donna McLean and Hunter Biden as co-Vice Chairmen at its July 2007 meeting.
The Board had elected Sylvia DeLeon as Vice Chairman on July 23, 2003.
However, Ms. DeLeon left the Board in August 2004.

Third, we found that in the last 2 years, the Board did not receive detailed lists of,
or grant approval for, capital projects costing over $1 million included in its
proposed Annual Grant and Legislative request. The Statement of Policy requires
that the Board not only approve the overall capital budget, but also the individual
capital projects over $1 million. According to Amtrak staff, these extensive lists
were prepared each year and used by Amtrak executives in managing Amtrak’s
capital program. However, Amtrak did not provide these lists to the Board as it
had done previously and the Board did not request them. Instead, the Board
received higher-level summary information on the proposed capital program.
Amtrak management indicated that the Board would receive the capital projects
list at its next meeting.

The Board has been working with Amtrak management to improve the capital
planning process. We believe that a prioritized list of proposed projects that are
valued at $1 million or more is an important part of this process in terms of
management of the capital program. The Board should ensure that this list is
prepared and used by management. However, we do not believe that it is
necessary for the Board to review the capital program on a project-by-project-
basis. Instead, the Board should focus on how the program’s priorities are set,
what the program’s expected outcomes are, what risks are involved in
                                                                                   7


implementing the program, and the projects that are large-dollar or otherwise
significant.


The Board Set a Long-Term Strategic Direction for Amtrak, but This
Direction Lacked Detail and Was Not Fully Implemented
The Board established a strategic direction for Amtrak with its April 2005 Amtrak
Strategic Reform Initiatives and FY 2006 Legislative Grant Request. This is an
important role for the Board because, unlike a typical public corporation, there are
many different viewpoints regarding how Amtrak should carry out its role in
providing intercity passenger rail service. In fact, the different goals supported by
various stakeholder groups, such as maximizing revenue, maximizing ridership,
minimizing costs, and minimizing losses, can be mutually exclusive. In contrast,
the goal of most corporations is to create and increase shareholder value. The
Amtrak Board is responsible for balancing competing goals for Amtrak and
articulating a strategic direction for the corporation, within the limits of the
policies and requirements established in law.

The April 2005 document specified Amtrak’s key long-term goals and
performance objectives as: (1) the development of passenger rail corridors through
a federal-state capital matching program; (2) the return of the Northeast Corridor
infrastructure to a state of good repair; (3) the establishment of performance
measures for long distance routes; and (4) the introduction of competition in all
passenger rail functions and services. It also outlined Amtrak’s long-term
structural, operational and legislative strategic initiatives.

Also, the Board reviewed, but did not formally approve, a mission statement at its
April 2006 meeting. Amtrak officials told us the Board was comfortable with the
statement, but wanted to make minor adjustments to it. This effort was put on
hold to permit the new CEO to have input. The draft mission statement is
currently used by Amtrak senior management and included in the orientation
briefing package for new board members. Together, the April 2005 plan and the
draft mission statement provide high-level strategic direction to generally guide
Amtrak management and employees in the performance of their duties.

However, the April 2005 document’s broad, long-term objectives were not
translated into a detailed plan with outcomes, milestones, and performance
measures. According to Chairman Laney, this was due, in part, to the previous
CEO’s strong resistance to the planning process and the transition to a new CEO
and restructured senior management team. In addition, the step-by-step plans for
each specific reform initiative promised in the April 2005 document; including
business plans, budgets, policies, milestone goals, and timetables; have been
completed for some but not all the initiatives. As a result, the Board and Amtrak
                                                                                 8


management have lacked a comprehensive standard against which to evaluate
whether Amtrak’s day-to-day activities are addressing the Board’s strategic vision
for Amtrak.

During the past several months, the Board has worked with Amtrak senior
management to update the April 2005 strategic plan. In June 2007 the Board
approved an updated plan for FY 2007 to 2008. The updated, but abbreviated,
plan outlines Amtrak’s financial and performance priorities and includes
measurable, near-term goals and deadlines for most initiatives. It focuses on
company-wide cost reductions and revenue enhancements that will help in
reducing Amtrak’s reliance on Federal operating subsidies, containing cost
growth, improving financial transparency, providing a safe environment for
employees and passengers, improving human capital management, conserving
natural resources, and expanding state corridor services where circumstances and
resources permit.

Compared to the April 2005 plan, this plan has a much shorter timeframe (15
months vs. 5 years), and places less emphasis on both evolving Amtrak into a
purely operating company and introducing competition into the provision of
intercity passenger rail service. Finally, the revised plan provides only a limited
number of long-term goals, called strategic policies, none of which are quantified.


The Board Has Limited but Sufficient Tools To Conduct Oversight
and Hold Management Accountable
We found that the Board has sufficient tools to conduct oversight and hold
management accountable even though it does not have all the tools that are
available to other corporate boards.

The formal oversight and accountability tools available to the Amtrak Board
include the authority to withhold approval of, or require modification to, proposed
annual legislative and grant requests, budgets, within-year budget reallocations,
consultant contracts, and executive-level hires and promotions. In addition the
Board may replace a CEO or other senior executive. The informal tools include
the ability to challenge the corporation’s performance and management proposals
by asking incisive questions; examine the key assumptions and trade-offs
underlying management’s proposals; ensure there is a reasonable, well-informed,
thoughtful corporate decision making process and request detailed briefings at
board meetings on areas of concern. Another tool for holding management
accountable is Amtrak’s pay-for-performance system, scheduled to go into effect
at the start of the next fiscal year.
                                                                                    9


While the Board does conduct oversight and takes steps to hold management
accountable, it does not have all the tools available to other corporate boards. For
example, the Amtrak Board does not have the final say on funding or all policy
issues. This is because Congress determines Amtrak’s overall funding level
through the annual appropriations process and sets policy through legislation and
the Administration approves both how funds are spent and certain Board
decisions.

We found that the Board followed many corporate governance best practices,
particularly those related to board independence, which directly affect its ability to
conduct oversight and hold management accountable. The Enron scandal of 2001
was viewed by many as evidence that some corporate boards lacked the necessary
ability to conduct meaningful oversight. After Enron, for example, both the New
York Stock Exchange and the NASDAQ Stock Market adopted new listing
standards seeking to improve board oversight by increasing board independence.

The practices that contribute to the Amtrak Board’s independence are:
(1) ensuring that Board members are not dependent on management for their
positions on the Board; (2) meeting regularly without the CEO or other Amtrak
executives to discuss sensitive topics; (3) setting its own agenda, in consultation
with the CEO; (4) having full and direct access to top-level executives, outside
advisors, and consultants; and (5) meeting independently with the outside financial
auditor. In many ways, the Amtrak Board is more independent than other
corporate boards in which Board members have direct personal, family or
professional ties to the CEO; have less direct access to information; and are led by
a CEO who also serves as Board Chairman.


While the Board Conducts Oversight and Holds Management
Accountable, Its Practices Could Be Improved
We found that the Board has shown a willingness to conduct oversight and hold
management accountable.         For example, the Board regularly questions
management’s proposals and at times, requires management to either provide
further justification or modify proposals before the Board approves them. It has
also replaced a CEO and other senior management officials.

Nevertheless, we believe the Board’s system of oversight and accountability could
be improved by implementing some corporate governance best practices and
formalizing some of its procedures. First, a best practice the Board did not follow
is evaluating the timeliness and adequacy of information it receives. As a result,
the Board does not always have the information needed to independently evaluate
Amtrak’s performance and plans. For example, the Board does not receive the
                                                                                                                   10


staffing information6 needed to evaluate management’s proposed salary and wage
expenses, the largest component of Amtrak’s operating costs.

The Board Chairman told us that he has recognized the need for better and more
reliable information; he also noted that the quality of information the Board
receives has improved in recent years and the Board’s Finance Committee Chair
has begun to work with management on this issue. Also, he stated that, ultimately,
the Board receives whatever information it requests, in the format requested, if
that information is available to Amtrak. However, this is an ad hoc process rather
than a forward looking, comprehensive process designed to ensure that the right
information is available to the Board when it is needed.

The Board also does not regularly review its own effectiveness in carrying out its
duties. Such reviews can range from a simple self assessment completed and
analyzed by the Board members to the hiring of outside consultants specializing in
corporate governance. We believe this type of annual review would help identify
areas in which the Board’s practices and oversight could be improved. Therefore,
we recommend that the Board amend its Statement of Policy to require at least an
annual review of (1) the timeliness and adequacy of the information it receives and
(2) its own effectiveness in carrying out its fiduciary and oversight responsibilities.

In addition, we found that some of the Board’s limited time during its 10 annual
board meetings was spent considering and voting on relatively insignificant items.
Figure 1 lists all the items in the Statement of Policy that require Board approval.
Management, in turn, devotes time and resources to preparing supporting materials
for these votes. For example, the Board was required to review and vote on a
proposed 5 year lease with a donut shop at an Amtrak-owned station with annual
payments of only approximately $100,000. We note that in some instances, such
as with capital reprogrammings, the requirement for Board approval of some
seemingly small ticket items may provide some useful information regarding the
status of the underlying program. However, to better utilize the Board’s and
management’s limited time, we recommend that the Board amend its Statement of
Policy to provide better guidance and more flexibility with respect to the types of
actions requiring its approval.




6
    For example, the Board does not receive data on full-time equivalent work years (FTE) which drives salary and wage
    costs. An FTE is equal to 2080 hours of work regardless of the number of employees needed to work those hours.
    For example, two half-time employees equal one FTE. Instead, the Board receives staffing data in terms of
    headcount, which measures the number of employees working at a particular point in time and is not directly related
    to salary or wage costs.
                                                                                                             11



           Figure 1. Actions or Items Requiring Board Approval
     •    Annual corporate budget
     •    Annual grant and legislative request
     •    Corporate strategic business plan
     •    Collective bargaining agreements
     •    Operation of new routes
     •    Route discontinuances
     •    Legal settlements greater than $1 million
     •    Capital/lease commitment approval requests (CARs) included in annual budget when
          they exceed $1 million
     •    Reprogramming of CARs in excess of $1 million
     •    Addition of new CARs in excess of $500,000 (if not included in approved budget)
     •    Cost overruns on approved CARS in excess of $250,000 or 5% of the original amount
          (whichever is less)
     •    Sale or retirement of fixed assets (other than rolling stock/real estate) in excess of $1
          million
     •    Revenue producing real estate transactions of $500,000 or more and all development
          projects
     •    Contracts for consultant services of $200,000 or more
     •    Any proposed personnel action regarding an Executive employee

Finally, as we noted previously, some of the Board’s oversight tools are informal,
such as its willingness to ask incisive questions. The Board’s willingness to ask
questions cannot be mandated, but the results of its oversight can be made more
transparent to external stakeholders. To this end, we recommend that the Board
amend its Statement of Policy to (1) require management to submit for the Board’s
approval an annual multi-year strategic plan with measurable goals and
performance objectives and (2) require Amtrak to publish an annual evaluation of
its performance against the previous year’s goals.


Board Members’ Expenses Comply With Corporate Guidelines and
Are Reasonable
We found that between 2002 and 2006, board members’ compensation (Director’s
fees) and expense reimbursements were a minor part of Amtrak’s overall expenses
and complied with the guidelines contained in the Board’s Statement of Policy.
The average annual cost for Board compensation and expenses during this period
was $95,434 (see Figure 2). Of this average annual amount, $44,340 was for
Director’s fees, $33,344 was for airfare,7 $13,026 was for hotel and meals, and
$4,725 was for other expenses. By comparison, Amtrak’s average annual
operating expenses during this time period were $3.04 billion.

7
    During this period, the Board Chairman frequently flew first class, although these flights were almost always
    promotional upgrades that were priced at the unrestricted coach fare.
                                                                                                                    12



                         Figure 2. Amtrak Board Expenses by Type (2002 – 2006)
                         150




                         100
      ($ in thousands)




                                                                        79.5
                                                                                        82.4

                               40.0
                                                                                                         51.1

                          50            31.4
                                                        22.2
                               54.6                                     54.0            48.9             44.3
                                        36.6
                                                        27.6
                          0
                               2002    2003            2004            2005            2006            5 Year
                                                                                                      Average
                                         Directors Fees           Expenses


According to the Board’s Statement of Policy, board members8 receive a $600
Director’s fee for participating in a regularly scheduled Board meeting, a $500 fee
for participating in Amtrak-related duties (not including attendance at a regularly
scheduled Board meeting)9 if such performance exceeds 3 hours, and a $250 fee
for performance of duties if such performance is 3 hours or less. Board members
also are reimbursed for travel expenses related to board meetings and their
performance of duties and for other reasonable expenses (such as photocopies,
postage, etc.) incurred in connection with the performance of their duties.

The Amtrak Board’s responsibilities are similar to that of other for-profit private
corporations, but its compensation is significantly less.10 Amtrak is not in a
position to compensate board members at levels comparable to industry standards,
nor should it. The Amtrak Board Chairman told us that board members serve, in
part, out of a sense of public service. However, he also said the compensation
limitations may limit the pool of potential new members since it can cause Board
members to pay some costs “out-of-pocket.”



8
     The Department of Transportation’s representative on the Board does not receive either compensation or expense
     reimbursement from Amtrak.
9
     Performance of duties includes participation in Board committee meetings, conferences, or meetings with members
     of management regarding corporate business that is properly subject to Board consideration, on–site visitations of
     corporate facilities relating to corporate business that is properly subject to Board consideration, and advice and
     assistance on Board matters when requested by the Chairman of the Board. Performance of duties does not include
     travel time, casual visits to corporate headquarters or other facilities, or personal travel.
10
     According to a board remuneration study completed by Steven Hall & Partners, the average 2006 compensation (not
     including expenses) for board members for corporations with less than $2.5 billion in revenues was $142,112.
                                                                               13


The Board has a system to review expenses for suitability before they are paid.
We found that the reimbursement policy sufficiently ensures the prudent use of
corporate resources and that no abuses of the policy have occurred. New board
members are advised during their orientation that only “reasonable” expenses are
reimbursed. Both the Board Chairman and Amtrak’s General Counsel told us that
board members are sensitive to the appearance of extravagance and, therefore, do
not request unreasonable reimbursements. These statements are supported by the
fact that, on occasion, board members will not request reimbursement for the full
airfare or hotel costs they personally incurred if they felt that amount would be
excessive. To ensure reasonableness, all Board expenses are reviewed by the
Amtrak General Counsel’s Office before being paid.                Issues regarding
reimbursement requests are raised to the Amtrak CEO and resolved between the
CEO and the Board Chairman and, if necessary, the full Board.

The absence of specific limits in the Board expense reimbursement policy has
raised concerns among some observers that the policy could be abused. For
example, since they are not Amtrak employees, Board members are not subject to
the reimbursement policy covering Amtrak employees, which includes specific
limitations and prohibits reimbursement for purchases of alcohol. We believe the
current review process is sufficient to prevent such abuses and is commensurate
with the limited amount of funds involved.


RECOMMENDATIONS
We recommend that the Amtrak Board of Directors:

 1. Amend its Statement of Policy to require at least an annual review of (a) the
    adequacy and timeliness of the information it receives and (b) its own
    effectiveness in carrying out its fiduciary responsibilities;
 2. Amend its Statement of Policy to provide better guidance and more
    flexibility with respect to the types of actions requiring its approval, and
 3. Amend its Statement of Policy to require (a) management to submit for the
    Board’s approval an annual, multi-year strategic plan with measurable goals
    and performance objectives and (b) Amtrak to publish an annual evaluation
    of its performance against the previous year’s goals.
                                                                                  14




AMTRAK BOARD OF DIRECTORS COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE
We provided Amtrak’s Board of Directors with a draft of this report. In his
response, the Board Chairman agreed that there is room for improvement in the
Board’s oversight of management’s implementation of Board policy direction for
Amtrak. Specifically, the Chairman indicated the Board would implement
Recommendation 1 at its October 2007 meeting through a revision to its Statement
of Policy. The Chairman agreed with Recommendation 2 and indicated an
internal process is underway to reassess and revise the types of actions that require
Board consideration and approval. We understand this proposal will be brought to
the Board for consideration this fall. We concur with the Board’s responses to
these recommendations.

With regards to Recommendation 3, The Board Chairman agreed with the
importance of having a multi-year strategic plan that was periodically updated, but
suggested these updates could occur, at times, on a bi-annual instead of an annual
basis. The Chairman disagreed with Recommendation 3(b), which called for an
annual evaluation of Amtrak’s performance against the previous year’s goals,
because the information needed to assess Amtrak’s performance is already
available through a variety of means.

We recognize the time and effort required of the Board and Amtrak to fully
develop a multi-year plan and that circumstances may not always warrant an
annual revision. Therefore, we concur with the Board’s proposal to update the
multi-year plan as needed, but at least on a bi-annual basis. In general, the
information needed to evaluate Amtrak’s performance against its goals is publicly
available from different sources. As long as this information remains publicly
available in a timely manner, Amtrak is meeting the intent of our recommendation.

We appreciate the courtesies and cooperation of the Amtrak Board and Amtrak
representatives during this review. If you have any questions concerning this
report, please call David Tornquist, Assistant Inspector General for Competition
and Economic Analysis at (202) 366-1981 or Mitch Behm, Program Director, at
(202 366-1995.

                                         #
                                                                               15




EXHIBIT A. SCOPE AND METHODOLOGY

Scope
In a letter to the Acting Inspector General, the Democratic Members of the House
Working Group on Amtrak requested that our office assess whether the structure
and activities of Amtrak’s Board of Directors are adequate to meet its legal and
fiduciary responsibilities and whether the Board’s expenses comply with corporate
guidelines. The Working Group was a bi-partisan group of Members of Congress
established by the House Committee on Transportation and Infrastructure to
explore the long-term viability of Amtrak.

As agreed to with the requestors, our objectives in this audit were to determine
(1) the rules, procedures, and authorities under which the Board operates;
(2) whether the Board has followed established processes and procedures;
(3) whether the Board has set long-term goals and objectives for Amtrak;
(4) whether the processes and procedures that the Board follows are sufficient for
ensuring oversight of and requiring accountability from Amtrak management; and
(5) whether the board members’ expenses comply with corporate guidelines and
whether those guidelines ensure the prudent use of corporate resources.

Our audit reviewed (1) the laws, rules, and policies governing Amtrak’s Board of
Directors, (2) the Board’s practices and decisions as reflected in regularly
scheduled Board meetings, and (3) Board members’ expenses from 2002 to 2006.
There has been no prior audit coverage of the Amtrak Board of Directors by the
Department of Transportation’s Office of Inspector General.


Methodology
To determine the rules, procedures, and authorities under which the Board
operated, we first reviewed Amtrak’s articles of incorporation, bylaws, and the
Board’s Statement of Policy as well as all other relevant legislation. Such
legislation included the Amtrak Reform and Accountability Act of 1997 and DC
Code Section 21-101, otherwise known as the DC Business Corporation Act.

To determine whether the Board complies with its rules and procedures, the
Assistant Inspector General for Competition and Economic Analysis (AIG)
attended all Board Meetings from March of 2006 to June 2007. In addition to the
AIG’s observations of Board practices during Board meetings, we read Board-
approved meeting minutes from 2002 to April 2007. We reviewed the meeting
minutes and other Board-approved documents to find relevant information
regarding the establishment of long-term goals and objectives, management


Exhibit A. Scope and Methodology
                                                                                                             16


accountability, and Amtrak’s corporate governance practices. In addition, we
interviewed Board Chairman David Laney, President and CEO Alexander
Kummant, as well as Amtrak’s then General Counsel Alicia Serfaty regarding
Board policy, practice, and governance. We also spoke to other Amtrak
executives regarding specific issues.

Because the Government Accountability Office (GAO) had previously conducted
an audit of Amtrak management, which included an evaluation of the Board, we
also met with the GAO audit team that worked on that project to discuss its
findings and to gather any relevant information.

In addition, we conducted a literature review of corporate governance best
practices in order to benchmark the Board’s ability to conduct oversight, hold
management accountable, and establish long term objectives. Our review of best
practices included the Business Round Table whitepaper, Principles of Corporate
Governance,11 a Report of the American Bar Association Task Force on Corporate
Responsibility12 and the American Bar Association Corporate Director’s
Guidebook.13 From these documents, we identified best practices that were
relevant to Amtrak. We noted any areas in which Amtrak’s Board practices were
not in compliance with best practices we identified.

Regarding the Board’ expenses, we documented all policies and procedures that
relate to expense reimbursement and compensation for the Board of Directors14.
During our interviews with Amtrak management and Chairman Laney, we also
discussed and noted any standard practices regarding compensation and expense
reimbursement. We obtained records of board member expenses reimbursed by
Amtrak as well as all Director’s Fees paid to board members, between 2002 and
2006 to determine if the records indicated compliance. We also reviewed
whistleblower information provided to us by the requestors.

We noted and requested clarification from Amtrak management of expenses that
appeared to have been either unreasonable or out of compliance with Board rules.
In virtually all cases, these apparent discrepancies proved to be clerical errors. We
also reviewed current practices regarding corporate board compensation.




11
     The Business Roundtable. Principles of Corporate Governance. May 2002.
12
     American Bar Association. Report of the American Bar Association Task Force on Corporate Responsibility.
     March 31, 2003.
13
     American Bar Association. Corporate Directors Guidebook. 2004, 4th Edition.
14
     These policies include: The DC Business Corporation Act, The National Passenger Railroad Corporation Bylaws,
     and the Board Adopted Statement of Policy.


Exhibit A. Scope and Methodology
                                                                             17




EXHIBIT B. AMTRAK BOARD MEMBERSHIP, 2002 - PRESENT
Table 2 displays the names of all Amtrak board members since 2002 as well as the
month of the confirmation (or recess appointment) and expiration of each
member’s appointments.

         Table 2. Amtrak Board Membership 2002-Present
           Board Member                                  Term
R. Hunter Biden*                                   July 2006-Present
Sylvia A. de Leon                              January 1994-June 1998
                                                July 1999-August 2004
Michael S. Dukakis                               June 1998-June 2003
Floyd Hall*                                   July 2004-December 2005
                                                 January 2006-Present
A. Linwood Holton                          September 1998-September 2003
David M. Laney*                                November 2002-Present
Donna McLean*                                      June 2006-Present
Norman Mineta                                     July 2001-July 2006
Mary Peters*                                     October 2006-Present
Amy Rosen                                      February 1996-June 1998
                                           September 1998-September 2003
John Robert Smith                                July 1998-June 2003
Enrique Sosa                                August 2004-December 2005
                                             January 2006-February 2007
*Current Amtrak board members

The Secretary of the Department of Transportation is a voting member of the
Board. However, the Secretary may designate a representative to sit on the
Amtrak Board of Directors. Table 3 displays Secretarial designees since 2002.

                     Table 3. Secretarial Designees
              Designee                                  Term
Michael Jackson                         June 2001-August 2003
Allan Rutter                            August 2003-June 2004
Kirk Van Tine                           June 2004-December 2004
Jeff Rosen                              January 2005-June 2006
Joseph Boardman                         October 2006-Present




Exhibit B. Amtrak Board Membership, 2002 - Present
                                                                         18




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT:



  Name                                 Title

  David Tornquist                      Assistant Inspector General for
                                       Competition and Economic
                                       Analysis

  Mitchell Behm                        Program Director

  Debra Mayer                          Project Manager

  Andrew Sourlis                       Analyst

  Lisa Mackall                         Auditor

  Dawn Boswell                         Analyst




Exhibit C. Major Contributors to This Report
                                                                                                          19




APPENDIX. RESPONSE FROM AMTRAK’S BOARD OF DIRECTORS
                             NATIONAL RAILROAD PASSENGER CORPORATION
                                                           60 Massachusetts Avenue, NE, Washington, DC 20002
                                                                             tel 202 906.3740 fax 202 906.2921




                                                                  David M. Laney
                                               Chairman, Arntrak Board of Directors


September 11, 2007


The Honorable Calvin L. Scovel III
U. S. Department of Transportation
Office of the Inspector General
1200 New Jersey Avenue, SE
7th Floor - West Building
Washington, DC 20590


Re: National Railroad Passenger Corporation (Amtrak) Comments on U.S. Department of
Transportation, Office of Inspector General report, “Amtrak’s Board Of Directors Provides
Leadership To The Corporation But Can Improve How It Carries Out Its Oversight
Responsibilities”.

Dear Inspector General Scovel:

Amtrak agrees with much of the analysis and all but one of the recommendations of the U.S.
Department of Transportation, Office of Inspector General (DOT OIG) report regarding the
Amtrak Board of Directors entitled “Amtrak’s Board Of Directors Provides Leadership To
The Corporation But Can Improve How It Carries Out Its Oversight Responsibilities.” In
particular, we agree that there is room for improvement in the Board’s oversight of
management’s implementation of Board policy direction for Amtrak; we would concede as
well that there always will be. Amtrak also agrees with the conclusions of the DOT OIG that,
within practical tolerances, the Board is in compliance with its governing documents, that it
has adequate tools to oversee and hold Amtrak management accountable, and that Board
expenses both comply with Amtrak guidelines and are reasonable.

The DOT OIG report appropriately recognizes certain reasons why the Amtrak April 2005
Strategic Initiatives document was not fully developed into a plan detailing performance
measures. Those obstacles delaying that development are past, and Amtrak management and
senior staff now have greater resources, capacity and focus on that aspect of planning.
Moreover, the scope and quality of information necessary for the development of such detail
have been materially improved.



Appendix. Response From Amtrak’s Board of Directors
                                                                                             20


The Honorable Calvin L. Scovel III
September 11, 2007
Page 2



Amtrak agrees with the DOT OIG that the Board has tools to enable adequate oversight and
accountability. To the tools referenced by the OIG, we would add that each Board member
has access, through Board meetings and newly reconstituted Board committees (each with
assigned management support), to Amtrak senior managers for information and perspective,
and the current Board is not reticent in utilizing such access.

Amtrak agrees fully that the Board is not in a position to review Amtrak’s capital program on
a project by project basis, or to approve each capital project on the scale of $1 million; yet it
is critical for the Board’s fulfillment of its fiduciary duties, and otherwise in the company’s
interests, that the Board develop an understanding of, and ultimately approve, the process by
which Amtrak identifies, prioritizes, budgets and implements capital projects, as well as an
understanding of the schedule and anticipated risks and outcomes of chosen priorities. The
Board, working with senior management (including Amtrak’s new Chief Financial Officer),
is developing a revised approach to inform the Board about Amtrak’s capital program,
including priorities and budget, and capital reprogrammings and a revised method of
bringing the program, its budget and necessary reprogrammings to the Board both for
informational purposes and for approval. It is expected that the Board will consider and adopt
revisions to its current approach and methodology no later than the October 2007 Board
meeting. The Board Statement of Policy will be revised appropriately.

Regarding the DOT OIG’s apparent reservations regarding Amtrak’s updated 2007 strategic
planning document because of its 15 month time frame (as opposed to the five years of the
April 2005 Strategic Initiatives document), the Board concluded that the shorter time frame,
with more granular measures than a multi-year plan would allow, would be of greater value
to Amtrak management at this point, was more practicable considering Amtrak's information
systems constraints, and would provide an important foundation for a subsequent, longer-
term strategic planning document.

Finally, with respect to the specific recommendations contained in the DOT OIG report,
Amtrak’s comments are as follows:

     1. Amend its Statement of Policy to require at least an annual review of (a) the
        adequacy and timeliness of the information it receives and (6) its own effectiveness
        in carrying out its fiduciary responsibilities.

        The Board agrees with this recommendation and intends to have the Board
        Statement of Policy so amended at the Board’s October 2007 meeting, At that same
        meeting, the Board expects to approve a form of annual evaluation of the adequacy
        and timeliness




Appendix. Response From Amtrak’s Board of Directors
                                                                                            21



The Honorable Calvin L. Scovel III
September 11, 2007
Page 3




        of the information it receives as well as its own effectiveness in carrying out Board
        responsibilities.

     2. Amend its Statement of Policy to provide better guidance and more flexibility with
        respect to the types of actions requiring its approval.

        Both the Amtrak Board and management agree with this recommendation, and as the
        DOT OIG is aware, Board members and management personnel have begun the
        reassessment and revision of the types and financial/value levels of matters requiring
        Board approval.

     3. Amend its Statement of Policy to require (a) management to submit for the Board’s
        approval an annual, multiyear strategic plan with measurable goals and
        performance objectives and (b) Amtrak to publish an annual evaluation of its
        performance against the previous year’s goals.

        The Amtrak Board and management consider part (a) of this recommendation a
        valuable suggestion if amended to eliminate unnecessary burden without affecting
        the substance and merit of a multi-year strategic plan approach. Practically speaking,
        the process of, each year, developing a full multi-year strategic plan of a level of
        quality satisfactory to the Board would present capacity challenges without a
        material added value return. But a multi-year strategic plan which, once filly
        developed, would be updated and extended periodically (or more if possible and
        needed to lay out strategic direction) is an excellent and achievable suggestion.
        Whether the process would occur annually or bi-annually is a matter to be
        considered by the Amtrak Board.

        Amtrak does not concur with part (b) of this DOT OIG recommendation – that
        Amtrak publish an annual evaluation of its performance against the previous year’s
        goals. Such a requirement would only add to Amtrak’s administrative burdens
        without offering new information or analysis to the DOT, Congress or the public.
        Virtually all information relating to Amtrak's fiscal and operating performance,
        including year over year, is transparent to and available to DOT, Congress and the
        public through Amtrak's required reports and filings, through Federal Railroad
        Administration, DOT and Congressional oversight (including Congressional
        hearings), and through Amtrak's web site, annual report and public affairs/corporate
        communications offices and resources. Respectfully, we see no added value in this
        proposal.




Appendix. Response From Amtrak’s Board of Directors
                                                                                          22


The Honorable Calvin L. Scovel III
September 11, 2007
Page 4



In closing, our appreciation of the effort on your part in examining Amtrak Board functions
and highlighting opportunities for improvements. We look forward to working with you
going forward.

Sincerely,



David M. Laney
Chairman of the Board




Appendix. Response From Amtrak’s Board of Directors
                                 508 Compliant Charts and Tables

   Amtrak’s Board of Directors Provides Leadership to the Corporation But Can
           Improve How It Carries Out Its Oversight Responsibilities


Figure 2. Amtrak Board Expenses by Type (2002 – 2006)

          2002 Directors Fees                                                 54.6

               2002 Expenses                                   39.98

          2003 Directors Fees                              36.6

               2003 Expenses                           31.44

          2004 Directors Fees                       27.6

               2004 Expenses                 22.2

          2005 Directors Fees                                                 54

               2005 Expenses                                                                  79.49

          2006 Directors Fees                                          48.9

               2006 Expenses                                                                    82.36

 5 Year Average Directors Fees                                    44.34

     5 Year Average Expenses                                              51.09




Data Table for Figure 2.

                                                                                                                 5 Year
                                                     2002           2003              2004     2005      2006    Average
 Directors Fees                                     $54.60         $36.60            $27.60   $54.00    $48.90      $44.34
 Expenses                                           $39.98         $31.44            $22.20   $79.49    $82.36      $51.09


 2002 Directors Fees                  54.6
 2002 Expenses                       39.98
 2003 Directors Fees                  36.6
 2003 Expenses                       31.44
 2004 Directors Fees                  27.6
 2004 Expenses                        22.2
 2005 Directors Fees                    54
 2005 Expenses                       79.49
 2006 Directors Fees                  48.9
 2006 Expenses                       82.36
 5 Year Average Directors
 Fees                                44.34
 5 Year Average
 Expenses                            51.09
